            -
                                   CLOSEOUT FOR M-9 1120045



                                                                                     NSF Directorate
                                                                                               --



                                                                        I   in the                     for



       I as part of his contract& agreement w i t h 1
 received support from NSF grant 1           a s well as other government agencies. These
 funds were administered by    1
 The contractual agreement b e t w e e n - a n d a s              to assess "the state of the art of
                      in instrumentation and control technology for civilian
                       that in the United States." This included visitation o




                        -
 sites, participation as a panelist in a workshop in a-nd

-completed             the site visitations and paRici ated as a panelist as agreed to in his contract
  and submitted a        During the review of the &a         reviewer noted that some of the material
  was taken from a revio            lished report without proper aclmowledgment. The
 r e v i e w e d                        and wrote to him outlining numerous examples of alleged
  plagiarism. In this same letter, t      h     e noted that "['IOU do credit [the source] once in the
  second paragraph of page 11, and state that 'a selected extract from his draft reports is included
  in the followhg subsections with minor modifications to provide coherent and complete
  description.' t ow ever, none of the material you use verbatim br slightly paraphrased from [the
  source] throughout the following sixteen pages is in quotes or double-indented as is required by
  the Chicago style manual." According to him, this included almost 90 percent of the body of the
  work.

 OIG learned that the        submitted by-               was never published. ~nstead,-ired
 another person to do the final report.

                                      a draft, with implied potential for rework, because it was never
 used, and because                did indicate in the text that he had extracted material from his other
 draft reports even though he did not cite properly, OIG concluded that the situation was ambiguous
 and, therefore, a definitive case was not possible. The Office of Investigation reviewed the
 f m c i a l aspects of this case and concluded that as long as-actually            visited the sites for
 which he received travel reimbursement and pekorrned the tasks indicated, there was no financial
 fraud involved.

 This case was closed.



 Staff Scientist, Oversight
                              CLOSEOUT FOR M-91120045

Con-:


                                             --z2
                                           3 -       p- 2
                                          James J. dole&
                                                                      -   / / / ~ 3 / ~ 3

Deputy Assistant Inspector General for    Assistant Inspector General for Oversight
Oversight




Counsel to the Inspector General

Cc:     Signatories
        Inspector General
